                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                         FINAL REPORT:

                  ADMINISTRATION OF PAYMENTS
                RECEIVED UNDER THE HELP AMERICA
                  VOTE ACT BY THE NEW MEXICO
                      SECRETARY OF STATE
                  APRIL 1, 2003 THROUGH DECEMBER 31, 2006




Report No.
E-HP-NM-01-07
May 2008
                          U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                 1225 New York Ave. NW - Suite 1100
                                        Washington, DC 20005


                                                                              May 27, 2008

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis Crider
           Inspector General

Subject:   Final Audit Report on the Administration of Help America Vote Act Funds by
           the New Mexico Secretary of State (Assignment No. E-HP-NM-01-07)

        This report presents the results of the subject audit. The objectives of the audit
were to determine whether New Mexico (1) expended Help America Vote Act (HAVA)
payments in accordance with HAVA and related administrative requirements and (2)
complied with the HAVA requirements for replacing punch card or lever voting
machines, for appropriating a five percent match for requirements payments, for
establishing an election fund, and for maintaining state expenditures for elections at a
level not less than expended in fiscal year 2000.

        The report identified the following issues needing management attention:

        9 The Office of the Secretary of State paid a contractor $6,271,810 to create a
          public education campaign on voting matters. Because of uncertainty over
          the basis for paying the contractor, the lack of contractor support for all costs
          billed, and the payment for services billed but not performed, we questioned
          all contract payments.

        9 The Office of the Secretary of State used HAVA Section 101 funds of
          $36,540 to pay for costs that were incurred prior to the period for which funds
          were available.

        9 Equipment purchased with HAVA funds was not adequately accounted for.

        9 New Mexico did not meet its five percent matching requirement of $751,568
          to qualify for HAVA Section 251 funds of $14,279,790.

        9 Interest of $147,799 earned on HAVA funds was not deposited timely into the
          state election fund.
       9 Program income realized from the use of equipment purchased with HAVA
         funds was not properly accounted for by the Office of the Secretary of State
         and county election offices.

        In an April 30, 2008 response to the draft report (Attachment 1), the State
generally agreed with our findings and recommendations and indicated that corrective
actions had been completed or was underway.

        Please provide us with your written response to the recommendations included in
this report by August 1, 2008. Your response should contain information on actions
taken or planned, including target dates and titles of Election Assistance Commission
officials responsible for implementing the recommendations

       Section 5(a) of the Inspector General Act (5 U.S.C. § App.3) requires the Office
of Inspector General to list this report in its semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
               BACKGROUND

               The Help America Vote Act of 2002 (HAVA or the Act) created the
HELP AMERICA   U.S. Election Assistance Commission (EAC or Commission) to assist
VOTE ACT       states and insular areas with the administration of Federal elections and
               to provide funds to states to help implement these improvements.
               HAVA authorizes payments to states under Titles I and II, as follows:

                   9 Title I, Section 101 payments are for activities such as
                     complying with Title III of HAVA for uniform and
                     nondiscriminatory election technology and administration
                     requirements, improving the administration of elections for
                     Federal office, educating voters, training election officials and
                     poll workers, and developing a state plan for requirements
                     payments.

                   9 Title I, Section 102 payments are available only for the
                     replacement of punchcard and lever action voting systems.

                   9 Title II, Section 251 requirements payments are for complying
                     with Title III requirements for voting system equipment; and
                     for addressing provisional voting, voting information, statewide
                     voter registration lists, and voters who register by mail.

               Title II also requires that states must:

                   9 Have appropriated funds “equal to 5 percent of the total amount
                     to be spent for such activities [activities for which requirements
                     payments are made].” (Section 253(b) (5)).

                   9 “Maintain the expenditures of the State for activities funded by
                     the [requirements] payment at a level that is not less than the
                     level of such expenditures maintained by the State for the fiscal
                     year ending prior to November 2000.” (Section 254 (a) (7)).

                   9 Establish an election fund for amounts appropriated by the state
                     “for carrying out the activities for which the requirements
                     payment is made,” for the Federal requirements payments
                     received, for “such other amounts as may be appropriated under
                     law,” and for “interest earned on deposits of the fund.” (Section
                     254 (b) (1)).




                                       1
                          HAVA funds received and expended by New Mexico are as follows:
FUNDING FOR
NEW MEXICO                    TYPE OF              AMOUNT                     OUTLAYS
                              PAYMENT             RECEIVED               AMOUNT       AS OF 1

                              101                     $5,000,000           $8,121,734          12/31/06
                              251                     14,279,790            6,001,737           9/30/06

                              Totals                $19,279,790          $14,123,471

                          To account for the payments, HAVA requires states to maintain
FINANCIAL                 records that are consistent with sound accounting principles, that fully
MANAGEMENT                disclose the amount and disposition of the payments, that identify
REQUIREMENTS              project costs financed with the payments and with other sources, and
                          that will facilitate an effective audit.

                          In addition, the Commission notified states of other management
                          requirements. Specifically, the Commission required that states must:

                              9 Comply with the Uniform Administrative Requirements for
                                Grants and Cooperative Agreements with State and Local
                                Governments (also known as the “Common Rule” and
                                published in 41 CFR 105-71).

                              9 Expend payments in accordance with cost principles for
                                establishing the allowability or unallowability of certain items
                                of cost for federal participation issued by the Office of
                                Management and Budget (OMB) in Circular A-87.

                              9 Submit annual financial reports on the use of Title I and Title II
                                payments.

                          The objective of our audit was to determine whether New Mexico
OBJECTIVE                 (1) expended HAVA payments in accordance with the Act and related
                          administrative requirements and (2) complied with the HAVA
                          requirements for establishing an election fund, meeting its matching
                          share requirement, and maintaining state expenditures for elections at a
                          level not less than the level expended in fiscal year 2000.

                          Specifically, we audited expenditures made from April 1, 2003 to
                          December 31, 2006 and reviewed controls to assess their adequacy
                          over the expenditure of HAVA funds. We also evaluated compliance

1
 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251
funds. For Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar
year. For Section 251, reports are due by March 30 for the activities of the previous fiscal year ending on
September 30.



                                                     2
          with certain HAVA requirements for the following activities:

             9 Accumulating financial information reported to EAC on the
               Financial Status Reports (Standard Forms number 269).
             9 Accounting for property.
             9 Purchasing goods and services.

          We also determined whether New Mexico had complied with the
          requirements in HAVA applicable to Section 251 requirements
          payments for:

             9 Establishing and maintaining an election fund.
             9 Appropriating funds equal to five percent of the amount
               necessary for carrying out activities financed with Section 251
               requirements payments.
             9 Sustaining the State’s level of expenditures for elections.

          The Appendix contains information on the audit scope and
          methodology.

          RESULTS OF AUDIT

          The audit identified the following deficiencies:
SUMMARY
                 1.      The Office of the Secretary of State awarded a contract
                         for a voter education campaign without following State
                         procurement procedures for the award of professional
                         services. The Office of the Secretary of State also paid
                         the contractor $6,271,810 on the basis of an
                         understanding reached with the contractor that was not
                         incorporated into the contract and which was different
                         than the basis upon which the contract was awarded.
                         Consequently, we questioned all contract payments.

                 2.      The Office of the Secretary of State used HAVA
                         Section 101 funds of $36,540 to pay for costs that were
                         incurred prior to the period for which funds were
                         available.

                 3.      Equipment purchased with HAVA funds was not
                         adequately accounted for.

                 4.      New Mexico did not meet its five percent matching
                         requirement of $751,568 to qualify for HAVA Section
                         251 funds of $14,279,790.



                                3
                                  5.       Interest of $ 147,799 earned on HAVA funds was not
                                           deposited timely into the state election fund.

                                  6.       Program income realized from the use of equipment
                                           purchased with HAVA funds was not properly
                                           accounted for by the SOS and county election offices.

                         During our audit, the Office of the Secretary of State took action to
                         address some of these issues.


                         Our analyses of the award of and payments under the contract for voter
VOTER                    education are presented in the following paragraphs.
EDUCATION
CAMPAIGN                 Background
CONTRACT
                         The Office of the Secretary of State used HAVA funds 2 to award a
                         professional services contract to A. Gutierrez and Associates, Inc.
                         (Gutierrez or Contractor) for a public education campaign on voting
                         matters. An advertisement requesting proposals ran from August 8
                         through August 17, 2004 in the Albuquerque Journal. The Office of
                         the Secretary of State evaluated two proposals and on August 24, 2004
                         informed Gutierrez that it would be awarded a contract. The contract
                         became effective on September 9, 2004 after Gutierrez, the Secretary
                         of State, and representatives of the Attorney General’s Office, the
                         Taxation and Revenue Department, and the Department of Finance and
                         Administration signed the contract.

                         On August 26, 2004, the Office of the Secretary of State signed a letter
                         from Gutierrez agreeing to change the basis of contract payment from
                         services, charges, and time (based on agreed-upon hourly rates of $75)
                         to a 17 percent administrative fee. The August 26, 2004 letter did not
                         specify the base to which the fee was applicable. Gutierrez included
                         the administrative fee in billings that were based on forecasted costs.

                         The scope of the contract included planning, executing and managing
                         media buys and producing voter education materials. The Office of the
                         Secretary of State amended the contract twice, increasing the contract
                         amount to $5,948,750. Amendment 1, dated May 18, 2006, required
2
 Gutierrez was paid $6,271,810 from the state election fund (Fund 903). HAVA Sections 101, 251, and
261 funds and interest earned on HAVA Section 101 and 251 funds were maintained in Fund 903.
However, a separate accounting of the expenditures by source of funding was not available at the beginning
of our audit. On May 14, 2007, New Mexico filed financial reports with EAC on the expenditure of
HAVA Sections 101 and 251 funds. The Section 101 report included $6,085,060 in HAVA Section 101
expenditures for the Gutierrez contract. The remaining contract payment of $186,750 was recorded as a
HAVA Section 261 expenditure.



                                                    4
                          Gutierrez to continue the public education campaign and produce a
                          training video. Amendment 2, dated October 6, 2006, required
                          Gutierrez to continue the public education campaign and produce a
                          poll worker training video. The amendments did not extend the period
                          of performance (September 9, 2004 through December 30, 2006).

                          Media buys included the purchase of 30-second spots 3 and half-hour
                          spots on television channels and cable television, 60-second spots on
                          radio stations, and a newspaper insert and other advertising. The spots
                          and the newspaper insert and advertising presented voter education
                          information, such as material about registering to vote, early voting,
                          absentee voting, voter identification requirements, and bilingual ballots
                          to the media viewers, listeners, and readers in New Mexico. The
                          scripts for the spots and the insert were prepared or contracted for by
                          Gutierrez. Spots were presented in English, Spanish, and Navajo.
                          Approximately 44,000 total spots were aired on or before the 2004
                          general, the 2006 primary, and the 2006 general elections.

                          The Office of the Secretary of State paid Gutierrez $6,271,810 under
                          the contract.

                          Contract Award

                          Under the regulations for professional services contracts, New Mexico
                          agencies may contract for professional services without using the State
                          centralized procurement office. According to the request for
                          proposals, a professional services contract was to be award in
                          accordance with the New Mexico procurement code regulations for
                          competitive sealed proposals (1NMAC 5.2). A Request for Proposal
                          (RFP) was issued on August 8, 2004, which required proposals to be
                          submitted by August 20. Two proposals were evaluated and the
                          Secretary of State notified Mr. Gutierrez of his firm’s selection on
                          August 24. However, we believe that the Secretary of State should
                          have informed the State’s centralized procurement office of the
                          planned purchase and provided it with a copy of the RFP as provide for
                          in the regulation (1NMAC 5.2 Section 29.3).

                          By not following the aforementioned requirements, competition may
                          have been limited because the state purchasing agent was precluded
                          from determining whether there were qualified firms available to
                          submit proposals for this work.



3
  Spots are air time purchased from the television or radio stations or cable television companies in which
the stations or companies agree to run the video and/or audio advertisement produced and provided by the
contractor.



                                                     5
Questionable Payments

Differing payment provisions and unsupported billings resulted in
questionable payments to Gutierrez. The contract required Gutierrez to
submit a detailed and certified statement of services, time, and charges
to the Secretary of State supplemented by receipts for expenses within
thirty days after the end of the month during which the services were
performed.

Gutierrez, however, submitted the first invoice on September 10, 2004,
one day after the effective date of the contract. The invoice was based
on a plan and budget for $2 million for the voter education campaign.
The plan was to purchase television and radio spots and billboard
space; to produce those advertisements; and to manage the voter
education campaign. The invoice did not identify the period of time it
covered, such as the November 2004 general election, but did specify
that the billboard advertising would be for 6 months. Gutierrez,
however, could not relate amounts billed to costs incurred and said that
billboard advertisements were not obtained. Furthermore, the
$2,000,000 invoice included an administrative fee of $365,000. The
$365,000 equals 22.3 percent of the $1,635,000 (costs excluding fee)
and is a higher rate than the 17 percent negotiated with the Secretary of
State. Not only was the rate incorrect, but it was applied to the wrong
amount. That is, the rate was applied to the $2,000,000, which already
included the $365,000 fee. Thus, the rate was applied to both fee and
forecasted costs.

Gutierrez submitted another invoice on July 15, 2005 for $2 million.
The invoice consisted of a media fee of $1,485,000 for commercial
airtime, video and CD ROM production, an administrative fee of
$365,000 for management services, and $150,000 for creative services.
The invoice did not identify the period of time that it covered nor was
it substantiated by receipts or time charges. Instead, a one-page
memorandum from Gutierrez dated May 11, 2006 was attached which
indicated that $2 million had been spent to date. We could not
determine why an invoice dated July 15, 2005, was supported by a
May 2006 list of expenditures.

The Office of the Secretary of State paid $1,712,000 to Gutierrez on
May 26, 2006, which was 8 days after Amendment 1 added $1,762,000
to the contract. The payment was supported by a “2006 General
Election Supplemental Activities Budget” for $1,712,000. Included in
the budget was $330,000 to send a newspaper-type of mailer to 1.1
million plus registered voters. Gutierrez advised, however; that instead




                       6
of a mailer his firm placed ads in newspapers about voting rights.
Included in the $1,712,000 payment was $185,000 for a training video.
In that regard, we noted that Gutierrez submitted and was paid
$186,750 for an invoice dated October 10, 2006. The payment was
made 14 days after Amendment 2 added $186,750 to the contract for
training video and for continuing the public education campaign.
Since we were only provided one video, it appears that Gutierrez may
have been paid twice for producing the same video.

Payment provisions for gross receipts taxes were imprecise. For
example, Gutierrez claimed $135,000 on April 19, 2005, or 6.75
percent of the $2 million he received from the SOS in September 2004.
The contract identified the gross receipts tax rate as 6.125 percent, not
6.75 percent. Furthermore, the contract covered three State fiscal years
and the State issues new tax rates schedules semiannually. Based on
the records Gutierrez provided to us, his firm paid gross receipts taxes
to the Department of Taxation and Revenue for this contract of
$55,370. In comparison, Gutierrez billings included $373,060 for
gross receipts taxes.

In total, Gutierrez was paid $6,271,810 which included $1,029,540 in
administrative fees and $373,060 in gross receipts taxes. The amount
paid for the voter education campaign exclusive of the management fee
and taxes (i.e., for the production of scripts, tapes, compact discs and
newspaper inserts and the purchase of air time) was $4,869,210. If one
were to assume that Gutierrez actually incurred $4,869,210 in costs, it
would have been reasonable then to calculate the administrative fee by
multiplying $4,869,210 times 17 percent. The product of this
calculation is $827,766; which is $201,774 less than the amount billed
for administrative fees. However, because the August 26, 2004
agreement does not identify the base(s) to which the rate should be
applied, it is not clear how the fee should be determined.

When asked about his invoicing practices, Gutierrez provided an
August 26, 2004 letter (Attachment 2) signed by him and the former
Secretary of State that said “We have negotiated a flat rate of 17% for
administrative costs associated with the performance of our media
services contract.” The Contractor told us that this 17 percent charge
was more attuned to the advertising business. The former Secretary of
State provided a memorandum dated September 2, 2004 (Attachment
3) from Gutierrez that she said was the basis for her agreeing to
substitute the 17 percent administrative fee for the three hourly rates
contained in the contract proposal. These two letters were not in the
contract file maintained by the Office of the Secretary of State.
According to the former Secretary of State, in a June 25, 2007 letter to
us (Attachment 4) the contractor filed detailed media run sheets with




                       7
her office, and she and her staff verified that the initial invoices
matched the subsequent media run sheets. However, there was no
evidence that anyone compared the radio and television station
invoices to the “invoices” that Gutierrez submitted to the SOS.
Further, we found no record of the SOS’s comparison of run sheets to
Gutierrez’s “invoices” and payments in the Gutierrez contract file. The
June 25, 2007 letter also states that the former Secretary of State
expected to enter into a fixed-price contract with Gutierrez. In our
opinion, however, payment of a contractor on the basis of a fee more
resembles a cost reimbursement than a fixed price arrangement.

To recap, the Secretary of State signed the contract on August 25,
2004, Gutierrez and the Secretary of State signed the letter changing
the payment provisions on August 26, 2004 and Gutierrez signed the
contract on August 31, 2004. The contract became effective on
September 9, 2004 after it was signed by other appropriate state agency
representatives. Section 17 of the contract states that the contract
“incorporates all the agreements, covenants, and understandings
between the parties concerning the subject matter, and all such
agreements, covenants and understandings have been merged into it.”
The contract, however; did not incorporate the provisions of the
August 26, 2004 letter.

Because we were not sure of the effect of the August 26, 2004 letter on
the contract, we asked the New Mexico’s Attorney General’s Office to
review the letter and give us an opinion about whether the August 24,
2004 agreement that it referred to was valid and binding, whether the
Attorney General’s Office had reviewed it as part of its initial review
of the Gutierrez contract, whether the agreement resulted in a cost-
plus-percentage-of-cost contract, and whether the former Secretary of
State had the authority to execute an agreement that changed a key
factor that was used to solicit, evaluate, and select a contractor in a
procurement competition.

The Attorney General’s Office responded that New Mexico law
authorizes it to provide legal advice to state organization and
employees. However, the Office did advise that it had not reviewed
the August 26 letter as a part of their review of the contract or the
amendments. The letter also advised that the chronology of the signing
of the documents :

      …raises three issues as to how this transaction may have
      transpired. These issues involve principles of: (a)
      contract merger; (b) contract amendment; and (c)
      renegotiation of proposed contract terms. Any legal
      assessment of the validity of this agreement requires




                      8
      consideration of these principles and the specific facts
      regarding the conduct of the parties to the agreement,
      both prior to and after execution of the contract
      documents.

Gutierrez’s Records of Contract Costs

Financial records furnished by Gutierrez substantiated net costs of only
$2,618,496 and did not support any costs for Gutierrez or his staff.

We requested all records that pertained to this contract from the
Contractor, copied them, returned the originals to Gutierrez, and
scheduled the costs by activity. The records substantiated costs of
$2,618, 496 related to the voter education campaign. Also, we noted
that there were no payroll or other records identifying the time the
Contractor and his staff may have worked on the contract. Therefore,
we asked the Contractor if any other records existed that he had not
given to us in response to our original request, such as time sheets,
daily logs, or diaries. In response, he provided us with a binder of
scripts for the voter education advertisements and invoices for each
script. The binder contained 44 copies of scripts in English and
Spanish and 7 scripts in Navajo for radio and television
announcements. The scripts covered various voting subjects such as
absentee voting, voter rights, registering to vote, provisional ballots,
and bilingual ballots. The binder also contained invoices showing an
amount for production and for gross receipt taxes. For example, the
invoice price for production of a 30 second television spot was $7,500
in 2004 and $8,500 in 2006. There were 189 invoices covering
announcements for the 2004 general election, 2006 primary election,
and the 2006 general election. Total price of the invoices was
$1,212,440.

We did not accept the invoices as valid proof of costs because they
were not supported by evidence of costs incurred such as payroll, paid
bills for production facilities, or cancelled checks. Furthermore, the
Contractor told us that a television station in Albuquerque, New
Mexico, permitted him to use the television studio facilities free of
charge to record the video and audio compact disks (CDs). He said
that the former Secretary of State stood in front of a blue screen and
then he filled in the background behind her. The Contractor said that
once the master video and audio CDs were made, he copied them and
provided copies to the television, cable, and radio stations throughout
New Mexico and El Paso, Texas. Thus, the activities covered by the
invoiced amounts for production were not clear.

Once more, we asked the Contractor whether he had any other records




                       9
associated with this contract. The Contractor said that he would check
records in storage and advised that it would take several weeks for him
to search for those records. We checked back with Gutierrez after
several weeks and he said that he had not looked for any other records.

Most of the records of actual costs were associated with advertising
related to the 2004 general and the 2006 primary and general elections.
The number of spots purchased was 44,588. Costs were also incurred
for the production of a training video and a newspaper insert. The total
costs of the goods and services Gutierrez purchased for the voter
education campaign totaled $2,618,496, excluding payments for gross
receipts taxes of $55,370.

In summary, records provided by Gutierrez evidenced costs incurred of
$2,618,496. The invoices submitted to the Office of the Secretary of
State by Gutierrez did not reflect actual cost incurred in the
performance of the contract because Gutierrez submitted only plans
and budgets as a basis for payment. This conflicts with the terms of the
contract which required Gutierrez to submit receipts to the Office of
the Secretary of State and certify that he incurred costs billed.
Furthermore, according to the contract, any hours worked by Gutierrez
and his staff would be payable at the rate of $75 per hour if submitted
in a detailed and certified statement of services, time, and charges.

Payments in Excess of the Contract Amount

The Office of the Secretary of State paid Gutierrez $323,060 more than
the amount allowed by the contract. We attributed the overpayment to
misinterpretation of the wording in the contract amendments
concerning reimbursement of New Mexico gross receipts taxes.

Amendment 1 stated that total contract payments could not exceed
$5,762,000 exclusive of gross receipts taxes. Amendment 2 said that
the total amount of the contract could not exceed $5,948,750 inclusive
of gross receipts taxes. Amendment 2 means that Gutierrez could not
be paid more than $5,948,750, even though the initial contract and
Amendment 1 provided for payment of contract amount plus gross
receipts taxes. However, before Amendment 2 was executed, Gutierrez
had already been paid $6,085,060. He subsequently billed $186,750.
Payment of this amount resulted in total payments to Gutierrez of
$6,271,810, which was $323,060 more than the contract ceiling.

Comments From The Former Secretary of State and Gutierrez

We discussed the purchase of voter education services and this contract
with the former Secretary of State, and with Gutierrez.




                      10
To clarify her position, the former Secretary of State provided us with
a June 25, 2007 letter describing the procurement and her actions
regarding the purchase of voter education services (See Attachment 4).
In the letter, she said:

       …Since I wrote the contract with the help of the State of
       New Mexico Attorney General I am comfortable
       describing the intent of this contract.

       Upon receiving the HAVA funds, dedicated for the
       Public Education Campaign, I was concerned that the
       Office of the Secretary of State would be overwhelmed
       with the minutia of tasks that a “cost plus award fee
       contract” would entail. I understood that as Chief
       Elections Officer, I was solely responsible for the
       utilization of the [HAVA] funds. The Office and Staff
       are experts in elections, not advertising. Upon
       reviewing the task at hand I chose that the Contractor
       and the State would enter into a “fixed price contract.”
       The contractor would manage production, scheduling,
       scripts, the airtime purchases and all other work to be
       included within the “fixed price contract.” The
       Contractor would report to me regularly on their
       progress and seek my approval on all finished products.
       This relieved my staff from micro-managing the work
       performed within this contract.

       I sought the assistance of the State of New Mexico
       Attorney General’s Office in developing the contractual
       agreement that would meet my needs for a fixed price
       agreement that would direct the Contractor to meet all
       of our goals for one fixed price. As it turned out, the
       AG’s office had previously developed a flat fee media
       services contract template that they used with their own
       Contractor, which was easily modified to fit our needs.

With regard to the total amount that Gutierrez received for his services,
the former Secretary of State said:

       The Agreement between the State of New Mexico and
       “A. Gutierrez & Associates” was for approximately
       $5.9 million dollars plus the required gross receipts tax.
       The Contractor and my Office did not exceed the $5.9
       million dollars which paid for the verified completion of
       the New Mexico Public Education Campaign. The




                      11
       Contractor provided a detailed report of airtime,
       distribution, identification of the media outlets where he
       aired the public education spots, and the amount of
       money that was to be paid to each station. I was
       assured the Contractor met his obligations by verifying
       his regular reports. This was especially critical to my
       Office as we were deeply involved in meeting all the
       other requirements of HAVA, along with New Mexico’s
       own election reforms.

With regard to advance payments for services, she stated:

       Because the majority of work under this contract was
       media buys, the work was paid for in advance of the
       running of the media ads. Upon completion of the ads
       being run, the contractor filed a detailed media run
       sheet with my office to further document work
       performed. My staff and I verified that the initial
       invoices matched the subsequent media run sheets.

She wrote further that:

        A. Gutierrez & Associates followed my explicit
        instructions throughout the Public Education
        Campaign, and met the intent and language of the
        Contract between the Office of the Secretary of State
        and the Contractor. They briefed and reported to me
        regularly on all details. I was completely satisfied with
        this Contractor. It is clear that the State of New
        Mexico benefited from the New Mexico public
        Education Campaign (as I defined it and contracted
        for) and I attest that the HAVA funds were spent within
        the boundaries of my Statutory Authority.

        It is a fact that the Contractor provided more than
        43,000 public education radio and television
        advertisement spots aired in New Mexico during the
        three election year cycle…. The value of the airtime
        was approximated at $22 million, far in excess of the
        cost of the agreement.

The Contractor explained that he and the former Secretary of State
agreed to modify the basis of contract payment. He provided a letter
dated August 26, 2004. (See Attachment 2), that he had prepared and
that was agreed to by the former Secretary of State. In part, the letter
says:




                      12
       As per our discussion on August 24, 2004, we have
       negotiated a flat rate of 17% for administrative costs
       associated with the performance of our media services
       contract. As a full-service advertising agency, I will be
       in charge of facilitating all costs associated with your
       non-partisan voter education programs in all forms of
       media. As you suggested, this will streamline the billing
       process with your office.

       There will, of course, be production costs. Additionally,
       there may also be costs associated with research,
       translation, duplication, postage, processing, travel as
       well as others that may arise as we proceed with this
       project.

To further explain the change in the fee arrangement, the former
Secretary of State provided us with the memorandum dated September
2, 2004 from Gutierrez and signed by her (See Attachment 3). In it,
the Contractor stated:

       It is my belief that if we stuck to the $75/hr. fee quoted
       in my agency’s response to the RFP, or if we charged
       New Mexico industry standards, the production costs
       would skyrocket beyond control. Most of our New
       Mexico film industry workers are unionized, which
       would mean a very high hourly rate, plus a range of
       peripheral costs that would add greatly to the final
       production costs.

The former Secretary of State told us that she relied on the statements
made by the Contractor that it would be better to agree to the 17
percent fee arrangement because it would result in a lower overall cost
to the state.

When asked about the invoices that he submitted, the Contractor
advised that he based his billings on budgets. When we asked the
Contractor why he did not bill the SOS in accordance with the terms of
the contract, the Contractor stated that he believed that the August 26,
2004 letter was an amendment to the contract and that the Office of
the Secretary told him how to bill. Furthermore, he explained that it
was not practical to bill monthly within 30 days of the end of each
month because the services were provided in three distinct periods
around the general election of 2004 and the primary and general
elections of 2006.




                      13
           If the revised payment provisions provide for the contractor to be paid
           on the basis of costs plus a percentage of costs, it would appear to
           violate state procurement laws. Specifically Part 13-1-149 of the New
           Mexico Procurement Code states… “that the use of a cost-plus-a-
           percentage-of-cost contract is prohibited except for the purchase of
           insurance.”

           Recommendations

           We recommend that the Election Assistance Commission require the
           New Mexico Secretary of State to:

              1. Obtain assistance from the New Mexico Attorney General’s
                 Office on the applicable contract provisions for determining the
                 basis of payment to Gutierrez.

              2. Based on the determination regarding the basis of payment to
                 Gutierrez, calculate the amount that should be paid for the voter
                 education services that were provided.

              3. Return to the state election fund (Fund 903) any difference
                 between the amount Gutierrez should have been paid in
                 recommendation 2 above and what he was actually paid.

              4. Calculate and pay interest into the election fund on the amount
                 returned to the election fund in recommendation 3 for the
                 period that it was missing from the fund.

              5. Establish and implement procedures to ensure that the SOS
                 follows applicable procurement laws, regulations, policies and
                 procedures, and contract provisions in the future.

           Secretary of State Response

           The Secretary of State indicated that the SOS was working with the
           New Mexico Attorney General’s Office to address the issues identified
           in the report.

           OIG Comments

           None.


           The State used Section 251 funds of $36,540 for costs that were
PREAWARD   incurred prior to the period of fund availability. The $36,540 was paid
COSTS      to San Juan County for costs incurred in 2000 related to implementing




                                 14
the Voter Registration and Election Management System (VREMS).

Office of Management and Budget Circular A-87, Attachment B,
Section 31, states that to be eligible as pre-award costs, costs must be
incurred:

      . . . prior to the effective date of award directly pursuant
      to the negotiation and in anticipation of the award where
      such costs are necessary to comply with proposed
      delivery schedule or period of performance. Such costs
      are allowable only to the extent that they would have
      been allowable if incurred after the date of the award and
      only with the written approval of the awarding agency.

EAC has concluded that for costs to qualify as pre-award costs, they
must be incurred pursuant to negotiation and in anticipation of grant
award. That is, the cost must be included in a (later) approved state
plan and incurred after Congress appropriated funding.

The state paid San Juan County on the basis of an agreement between
the County and the Office of the Secretary of State that was signed in
May 2005. The County submitted its bill to the Office on June 1,
2005. However, San Juan County incurred the costs in 2000, 2 years
prior to passage of HAVA and thus, we concluded, before anticipation
of award and the appropriation of Federal funds. Therefore, we
questioned the $36,540 paid to San Juan County.

Recommendation:

We recommend that the EAC require the Secretary of State to:

   6. Reimburse the state election fund for the $36,540 payment to
      San Juan County.

   7. Pay interest to the Election Fund on the $36,540 from the date
      it was received to the date it was returned to the Election Fund.

Secretary of State Response

The Secretary of State indicated that New Mexico would reimburse the
HAVA fund for the $36,540 plus interest.

OIG Comments

None.




                      15
              The Office of the Secretary of State did not notify its counties that title
PROPERTY      to the equipment purchased with HAVA funds and delivered to the
MANAGEMENT-   counties was to be vested in the counties. As a result, neither the SOS
EQUIPMENT     nor the offices of the county clerks at the five counties that we visited
              adequately accounted for the equipment. The Code of Federal
              Regulations, 41 CFR 105-71.132(d)(1)stipulates that property records
              must be maintained that include a description of the property; a serial
              number or other identification number; the source of property; who
              holds the title; the acquisition date; cost of the property; percentage of
              Federal participation in the cost of the property; the location, use and
              condition of the property; and any ultimate disposition data including
              the data of disposal and sale price of the property.

              The State purchased equipment and software for VREMS and for
              voting equipment with HAVA and state funds. Equipment in support
              of VREMS included servers, scanners, printers, and computers.
              Voting equipment, which was purchased from Election Systems and
              Software, Inc. (ES&S), consisted of M-100 optical scanners, M-650
              high speed scanners, AutoMark voting assistance machines, and
              supporting equipment such as tables and software licenses. Most of
              this equipment was delivered to New Mexico’s 33 counties.

              An information technology business analyst with the Office of the
              Secretary of State told us that the equipment belonged to the counties.
              County clerks at four of the five counties we visited said they believed
              that title to the property was vested with the Secretary of State because
              the state purchased the equipment and had not formally transferred title
              to the equipment to them. For that reason, the counties had not
              recorded the property in their accounting and property management
              systems. The other county clerk stated that she intended to add the
              equipment to the property management system of the county the next
              time their contractor completed a physical inventory of the county’s
              personal property.

              Two of the counties provided us with ES&S lists of the property that
              was delivered to their facilities. Two other counties gave us lists of
              equipment which county officials had prepared. One county did not
              prepare a list of HAVA equipment. An employee of the Information
              Systems Division of the Office of the Secretary of State also provided
              us with lists of the property for all counties in the State prepared by
              E.S. &S. When we compared the serial numbers on the lists to the
              serial numbers of the scanning machines and AutoMarks located at
              four of the five counties we visited, we found that the number of
              machines and the serial numbers of the machines did not agree in all
              cases.




                                     16
             During the audit, the SOS initiated the transfer of title to equipment
             located at the counties to the counties. The SOS has also initiated a
             procedure whereby SOS staff will perform random checks to ensure
             that the counties are complying with applicable requirements.

             Recommendations:

             We recommend that the Executive Director of the EAC direct the
             Secretary of State to:

                8. Ensure that equipment located at the counties is properly
                   recorded in accordance with 41 CFR 105-71.132(d) (1) of the
                   Common Rule.

                9. Resolve with the differences between equipment purchased and
                   equipment delivered.

             Secretary of State Response

             The Secretary of State indicated that that the Office of the Secretary of
             State was working with the Attorney General’s Office to complete the
             transfer of the property to the counties. In addition, the Office of the
             Secretary of State conducted a test and inventory project to document
             all serial numbers of equipment delivered by the vendor during the
             purchase of voting equipment. During this process, the SOS
             discovered that the vendor did not deliver all of the equipment that was
             purchased with HAVA funds. The SOS is currently working with the
             vendor to resolve the matter.

             OIG Comments

             Based on the actions being taken by the SOS, we consider
             recommendation 8 resolved but not implemented. In addition, based
             on the response, we added recommendation 9 to ensure that difference
             between equipment purchased and equipment delivered is adequately
             resolved.

             New Mexico did not deposit into the State’s HAVA fund state
STATE FIVE   matching funds of $751,568 that were required as a condition to
PERCENT      receiving HAVA Section 251 requirements payments of $14,279,790.
MATCH
             To receiving HAVA requirements payments, Section 253(b)(5) of
             HAVA requires states to have:

                    . . . appropriated funds for carrying out the activities
                    for which the requirements payment is made in an




                                   17
                                 amount equal to 5 percent of the total amount to be
                                 spent for such activities (taking into account the
                                 requirements payment and the amount spent by the
                                 State) . . .

                        Based on this requirement, New Mexico’s matching requirement was
                        $751,568. 4 Section 254 (b)(1)(A) of HAVA requires states to deposit
                        the funds appropriated to match the requirements payment into a state
                        election fund along with interest earned on deposits of the fund.
                        However, an official of the Office of the Secretary of State said that the
                        State is not permitted to commingle federal and State funds.
                        Accordingly, the State matching funds were not deposited into the state
                        election fund.

                        The Secretary of State responded that it was her understanding that the
                        previous administration intended to use a portion of an $11 million
                        State appropriation for the purchase new voting machines as the State’s
                        matching requirement. That appropriation was never deposited into
                        Fund 903, but it was spent on new voting machines in October 2006.

                        Recommendations:

                             10. We recommend that the Executive Director of the EAC direct
                                 the Secretary of State to specify the source of State matching
                                 funds of $751,568.
                        Secretary of State Response

                        The Secretary of State indicated that the $536,604 has been transferred
                        from the General Fund to the HAVA fund, and interest deposited totals
                        $ 165,100. The Secretary of State indicated that the Office of the
                        Secretary of State would work with the State Treasurer and the
                        Department of Finance and Administration to determine the amount
                        due to satisfy the match, plus interest.

                        OIG Comments

                        None.

                        Interest that should have been earning on deposits into the state
INTEREST                election fund was not accumulated correctly. This occurred because
                        the New Mexico State Treasurer did not timely transfer some monthly
                        interest earned on HAVA funds into the state election fund. In
                        addition, interest was not earned on the state’s five percent matching

4
 Federal Funds of $14,279,790 divided by 95 percent equals total program funds of $15,031,358. Funds of
$15,031,358 multiplied by 5 percent equals a $751,568 matching requirement.



                                                  18
          requirement of $751,568 because matching funds were not deposited
          into an interest-bearing account. We estimated that interest of
          $147,799 was owed as of December 31, 2006. HAVA requires that
          interest be deposited into the election fund of the State.

          The Secretary of State, in response to the finding, requested that the
          New Mexico State Treasurer review the finding. The Treasurer
          indicated that he generally agreed with the finding, and that the funds
          had been deposited into the Election Fund.

          Recommendations:

          We recommend that the Executive Director of the EAC direct the
          Secretary of State to:

             11. Confirm that the $147,799 has been deposited into the election
                 fund.

          Secretary of State Response

          The State Treasurer indicated that the interest earned on the HAVA
          funds have now been deposited into the HAVA fund.

          OIG Comments

          None.

          Program income has not been properly computed or reported.
PROGRAM   According to the Uniform Administrative Requirements for Grants
INCOME    and Cooperative Agreements with State and Local Governments (41
          CFR 105-71.125), program income means gross income received by
          the grantee or subgrantee directly generated by a grant supported
          activity during the grant period and includes items such as fees from
          the use or rental of real or personal property acquired with grant
          funds. The Uniform Administrative Requirements also stipulates, in
          part, that the costs incident to the generation of program income may
          be deducted from gross income to determine program income, if
          authorized by Federal regulations or the grant agreement.
          In the case of the HAVA program, the grant-supported activity was the
          acquisition of voting machines and the development of the statewide
          voter registration databases. Specifically, New Mexico counties and
          the Office of the Secretary of State generated program income from
          charging for statistics on registered voters (public service requests or
          PSRs) generated from using the HAVA provided statewide voter
          registration database and from leasing HAVA financed voting
          machines to local governments. At two of the five counties we visited,



                                19
the county clerks stated that they had charged local governments for
the use of voting machines. In three of the five counties that we
visited, the county clerks told us that they had received income for the
PSRs. In addition, an employee of the Office of the Secretary of State
provided us with a schedule of the income that the Office of the
Secretary of State had received for PSRs.
The county proceeds from the sale of PSRs and from the local
governments’ use of voting machines have been deposited into the
general funds of the counties. The proceeds from the sale of PSRs by
the State have been deposited into the general fund of the State.
We consider the revenue from the sale of PSRs and the use of voting
equipment financed with HAVA funds to be program income. As
such, it should be reported on the Financial Status Reports (SF-269s)
submitted by the Office of the Secretary of State and disposed of in
accordance with federal requirements.
The Office of the Secretary of State and the county clerks that
we visited were unaware that the revenue we identified was
program income. Furthermore, they were unaware of the
requirement regarding program income.

When we notified the Secretary of State of this finding, she provided
us with a listing of all program income generated using HAVA
equipment. The listing also contained costs incurred by the counties to
generate the program income. It disclosed that the costs associated
with the generation of program income far exceeded gross program
income received.

Recommendations:

   12. We recommend that the Executive Director of the EAC require
       the Secretary of State to continue to obtain from the County
       Clerks gross program income and the cost of producing that
       income. If any net income is reported, the SOS should direct
       the County Clerks to use the income for HAVA activities.

Secretary Of State Response

The SOS indicated that there was no program income for 2007and
2008. In addition, the SOS has worked with all of the County Clerks
on guidance in reporting program income on a yearly basis.

OIG Comments

None.




                      20
                                                     APPENDIX

SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed:

9 The prior single audit report and other reviews related to the
  Secretary of State’s financial management systems and the HAVA
  program for the last 2 years.
9 Policies, procedures and regulations for the New Mexico Secretary
  of State’s management and accounting systems as they relate to the
  administration of HAVA programs.
9 Inventory lists of all equipment purchased with HAVA funds.
9 Major purchases.
9 Supporting documents maintained in the accounting system for
  payments made with HAVA funds.
9 Support for reimbursements to counties.
9 Certain New Mexico laws that impacted the election fund.
9 Appropriations and expenditure reports for State funds used to
  maintain the level of expenses for elections at least equal to the
  amount expended in fiscal year 2000 and to meet the five percent
  matching requirement for section 251 requirements payments.
9 Information regarding source/supporting documents kept for
  maintenance of effort and matching contributions.
We also interviewed appropriate Office of the Secretary of State
employees about the organization and operation of the HAVA
program.

We conducted our review in accordance with Government Auditing
Standards issued by the Comptroller General of the United States. As
such, we included tests and procedures as considered necessary under
the circumstances to evaluate the Division’s controls over the
administration of HAVA payments. Because of inherent limitations, a
study and evaluation made for the limited purposes of our review
would not necessarily disclose all weaknesses in administering HAVA
payments.




                     21
     Attachment 1




22
23
Exhibit 1 and Exhibit 2 withdrawn by the Office of Inspector General.




                                 24
25
26
27
     Attachment 2




28
     Attachment 3




29
     Attachment 4




30
31
32
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
